2311 Douglas Street

COCKLE

Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-
LIBERTARIAN NATIONAL COMMITTEE, INC.,
Petitioner,
ve
FEDERAL ELECTION COMMISSION,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of August, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

ALAN GURA
Counsel of Record

GURA PLLC

916 Prince Street,
Suite 107

Alexandria, VA 22314

703.835.9085

alan@guraplic.com

Subscribed and sworn to before me this 19th day of August, 2019.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

erent EC Clit Qudiw-h, Cle

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38171
Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice
Room 5616
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

Lisa J. Stevenson,

Acting General Counsel
Jacob S. Siler,

Attorney
Federal Election Commission
1050 First Street, N.E.
Washington, DC 20463
(202) 694-1650
jsiler@fec.gov

Attorneys for Respondent
